@OCKLE

2311 Douglas Street Le ga 1 Bri e fs E-Mail Address;

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-1134

LONNY E. BALEY, ET AL.,
Petitioners,

Vv.
UNITED STATES, PACIFIC COAST
FEDERATION OF FISHERMEN’S ASSOCIATION,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 14th day of April, 2020, send out
from Omaha, NE 8 package(s) containing * copies of the BRIEF OF OREGON WATER RESOURCES CONGRESS,
NATIONAL WATER RESOURCES ASSOCIATION, FAMILY FARM ALLIANCE, IDAHO WATER USERS
ASSOCIATION, WASHINGTON STATE WATER RESOURCES ASSOCIATION, IRRIGATION & ELECTRICAL
DISTRICTS ASSOCIATION OF ARIZONA, AGRIBUSINESS & WATER COUNCIL OF ARIZONA, AND YUMA
COUNTY AGRICULTURE WATER COALITION, ET AL. AS AMICI CURIAE IN SUPPORT OF PETITIONERS in the
above entitled case. All parties required to be served have been served by third-party commercial carrier for delivery within 3
calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

RACHEL C. LEE STEVEN L. SHROPSHIRE

Counsel of Record CAYLIN J. BARTER
DAVID E. FILIPPI JORDAN RAMIS PC
MERISSA A. MOELLER 360 SW Bond Street, #510
KIRK B. MAAG Bend, OR 97702
STOEL RIVES LLP
760 SW Ninth Avenue Counsel for Amicus Curiae
Suite 3000 Oregon Water Resources Congress
Portland, OR 97205
(503) 224-3380

rachel. lee@stoel.com

Subscribed and sworn to before me this 14th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

é GENERAL HOTARY-State of Webraska
RENEE J. GOSS
My Comm. Exp. September 8, 2023 f

Q. thos Ondiav-h. Bhle

Notary Public Affiant 39697

 

   
SERVICE LIST

 

Timothy S. Bishop
Representing Petitioners
Mayer Brown LLP

1999 K Street, NW
Washington, DC 20006
(202) 263-3000
tshishop@mayerbrown.com

1 copy

Paul S. Simmons

Counsel of Record for Petitioners
Somach Simmons & Dunn

500 Capital Mall, Suite 1000
Sacramento, CA 95814

(916) 449-7979
psimmons@somachlaw.com

3 copies

 

Richard 8. Deitchman
Somach Simmons & Dunn
500 Capital Mall, Suite 1000
Sacramento, CA 95814
(916) 449-7979
rdeitchman@somachlaw.com

1 copy

Todd D. True

Stephanie Kathleen Tsosie
Representing Respondent Pacific Coast
Federation of Fishermen’s Associations
Earthjustice

810 Third Avenue, Suite 610

Seattle, WA 98104-1711

(206) 343-7340

ttrue@earthjustice.org
stsosie@earthjustice.org

3 copies

 

Noel Francisco

Counsel of Record for Respondent United
States

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

(202) 514-2203
supremectbriefs@usdoj.gov

3 copies

Edwin S. Kneedler

Representing Respondent United States
Deputy to the Solicitor General

U.S. Department of Justice

Room 5143

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

(202) 514-3261
Edwin.s.kneedler@usdoj.gov

1 copy

 

 

Jeffrey Bossert Clark

Representing Respondent United States
Assistant Attorney General

U.S. Department of Justice

Environmental and Natural Resources Division
950 Pennsylvania Avenue, NW

Washington, DC 20530

(202) 541-2701

Jeffrey.clark@usdoj.gov

1 copy

 

Eric A. Grant

Representing Respondent United States
Deputy Assistant Attorney General

U.S. Department of Justice

Environmental and Natural Resources Division
Room 2611

950 Pennsylvania Avenue, NW

Washington, DC 20530

(202) 514-0943

Eric.grant@usdoj.gov

l copy"

 

 
